OFFICE OF AUDIT
REGION 10
SEATTLE, WA




                  Home Forward, Portland, OR

                       Moving to Work
               Housing Choice Voucher Program




2013-SE-1004                                    August 8, 2013
                                               U.S. DEPARTMENT OF
                            HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL



                                                                    Issue Date: August 8, 2013

                                                                    Audit Report Number: 2013-SE-1004


TO:            Joy McCray, Director, Office of Public Housing, Portland Field Office, 0EPH

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 0AGA


SUBJECT:     Home Forward Generally Complied With Moving to Work Housing Choice
Voucher Requirements


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of Home Forward’s Moving to Work
Housing Choice Voucher program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. Please furnish us copies of any correspondence or directives
issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5870.




                                               Office of Audit Region 10
                                   909 First Avenue, Suite 126, Seattle, WA 98104
                                      Phone (206) 220-5360, Fax (206) 220-5162
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
                                            August 8, 2013
                                            Home Forward Generally Complied With Moving to
                                            Work Housing Choice Voucher Requirements




Highlights
Audit Report 2013-SE-1004


 What We Audited and Why                     What We Found

We audited Home Forward’s Moving to         Home Forward generally complied with requirements
Work Housing Choice Voucher                 for selecting Housing Choice Voucher tenants in order
program. We selected Home Forward,          from the waiting list and conducting timely inspections
formerly known as the Housing               for housing quality standards.
Authority of Portland, because it
disbursed the highest average Section 8
funds in Oregon from 2010 to 2012 and
third highest in the Region, including
Alaska, Idaho, Oregon, and
Washington. We focused on its tenant-
based housing choice vouchers because
they represented 85 percent of its
Section 8 portfolio. Our objectives
were to determine whether any tenants
were selected out of order from the
waiting list and whether inspections for
housing quality standards were
completed in a timely manner.

 What We Recommend

This report contains no
recommendations, and no further action
is necessary with respect to this report.

We provided the discussion draft of the
audit report to Home Forward on July
26, 2013, and requested its comments
by August 9, 2013. Home Forward
chose not to provide a written response.
                          TABLE OF CONTENTS

Background and Objectives                                                  3

Results of Audit
      Home Forward Generally Complied With Moving to Work Housing Choice   4
            Voucher Requirements

Scope and Methodology                                                      5

Internal Controls                                                          7




                                         2
                      BACKGROUND AND OBJECTIVES

Home Forward

Home Forward is the new name for the Housing Authority of Portland, OR. This change occurred
in May 2011. Home Forward participates in the U.S. Department of Housing and Urban
Development’s (HUD) Moving to Work program and has been operating as a Moving to Work
agency since April 1999. In fiscal year 2012, Home Forward spent more than $67 million in
housing assistance payments. In January 2013, it was using 7,335 of its 7,379 available vouchers.

Moving to Work Program

Moving to Work is a long-term Federal pilot program designed to learn whether public housing
authorities can serve their communities better with more local discretion over funding allocation,
policies, and procedures. Therefore, Moving to Work agencies are granted a greater degree of
regulatory flexibility to innovate new approaches to fulfilling their missions.

Housing Choice Voucher Program

The purpose of the Housing Choice Voucher program is to assist very low-income families, the
elderly, and the disabled so that they may afford decent, safe, and sanitary housing in the private
market. Housing choice vouchers are administered locally by public housing agencies that receive
Federal funds from HUD to administer the program.

Housing assistance is provided directly to the landlord on behalf of an eligible family, and that
family is responsible for finding a suitable housing unit, which the owner agrees to rent under the
program. The participating family is free to choose any housing that meets the requirements of the
program and is not limited to units located in subsidized housing projects. These units, however,
must meet minimum standards of health and safety, specifically housing quality standards. The
family pays the difference between the actual rent charged by the landlord and the amount
subsidized by the program.

Program rules and regulations require public housing agencies to maintain waiting lists for potential
tenants. They also require public housing agencies to inspect units at least annually to determine
whether they meet housing quality standards.

Our objectives were to determine whether any tenants were selected out of order from the waiting
list and whether inspections for housing quality standards were completed in a timely manner.




                                                  3
                               RESULTS OF AUDIT


Home Forward Generally Complied With Moving to Work Housing
Choice Voucher Requirements
Home Forward generally complied with requirements for selecting Housing Choice Voucher
tenants in order from the waiting list and conducting timely inspections of housing quality
standards.


 Waiting List Selections

              Home Forward generally complied with requirements for selecting Housing
              Choice Voucher tenants in order from the waiting list. We analyzed each version
              of the waiting list in our audit period and noted when an applicant was either
              added to the list, removed from the list without being at the top of the list,
              awarded a voucher before being put on the list, or not on the list despite being
              awarded a voucher. We found examples of each of these issues and reviewed a
              sample from each category. We found no instances of tenants being selected out
              of order.

 Housing Quality Standards
 Inspection Timeliness

              Home Forward generally complied with requirements for conducting timely
              inspections of housing quality standards. We analyzed Home Forward’s
              inspection data for fiscal year 2013 and compared the earlier inspection approval
              date to the more current inspection date to determine whether the more current
              inspection was timely. While 24 CFR (Code of Federal Regulations) 982.405(a)
              requires annual housing quality standards inspections, as a Moving to Work
              agency, Home Forward is allowed to create and implement its own policies. In
              this case, Home Forward’s administrative plan says that it may conduct regular
              unit inspections every other year for nearly all Housing Choice Voucher
              participants. We determined that Home Forward’s housing quality standards
              reinspections were completed in a timely manner in all material respects.

 Recommendations

              This report contains no recommendations, and no further action is necessary with
              respect to this report.




                                               4
                                                 
                             SCOPE AND METHODOLOGY

Our scope for the waiting list review was the period between April 2011 and February 2013,
while the scope of the housing quality standards inspection review was April 2012 through
March 2013. We performed our onsite audit work between March and May 2013 at Home
Forward’s office located at 135 Southwest Ash Street, Portland, OR.

To accomplish our objectives, we studied applicable agreements and HUD requirements,
reviewed Home Forward’s Moving to Work plans, interviewed HUD and Home Forward staff,
reviewed Home Forward’s Section 8 administrative plan, and analyzed Home Forward’s waiting
list generations and housing quality standards inspection dates.

Sample Selection

We performed analytical reviews of 100 percent of the names on the waiting list and 100 percent
of the units receiving housing quality standards inspections. In each category in which we had a
possible issue on the waiting list, we selected a nonstatistical sample to verify Home Forward’s
explanations. We focused on the applicants appearing in multiple issue categories, allowing us
to effectively test the various issues while reviewing the supporting documentation for fewer
applicants.

       We randomly selected two of the six applicants appearing in each of the following issue
        categories: added to the top of the waiting list; on the waiting list for only one
        generation, issued a voucher, and not identified as a Family Unification Program
        applicant at the bottom of the list;1 and receiving a voucher but not a Family Unification
        Program applicant.
       For the four tenants with vouchers issued before their entry on the waiting list, we
        selected the two tenants also participating in the Family Unification Program.
       We randomly selected one of the nine applicants applying for the Family Unification
        Program and removed out of order without receiving vouchers.
       We randomly selected 1 of the 12 applicants removed out of order without receiving
        vouchers and not applying for the Family Unification Program.
       We randomly selected 4 of the 95 tenants not appearing on the waiting list.

Our review involved analyzing computer-processed waiting list and housing quality standards
inspections data, and we used these data to support our audit conclusions. We assessed the
data’s validity by comparing list and inspection elements to information contained in the tenant
files. The computer-processed data were reliable for basing our conclusions.




1
  According to Home Forward’s staff members, they included Family Unification Program applicants in a separate
pool of vouchers at the bottom of the waiting list. Staff members added applicants for this program to the waiting
list at the bottom of the separate group and removed them from the top of the same group (not from the top of the
entire list) as they were awarded a voucher.

                                                         5
                                                           
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               6
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Home Forward’s Section 8 administrative plan describing its policies and
                      procedures.
                     Home Forward’s internal quality control reviews of admissions and
                      recertifications.
                     The independent public accountant’s audit report and transaction testing.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objectives in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of Home Forward’s internal control.




                                                 7
                                                   
